Executive Report



Return to the USDOJ/OIG Home Page



Compliance with Standards Governing
Combined DNA Index System Activities
Illinois State Police
Springfield Forensic Science Laboratory
Springfield, Illinois
GR-50-00-025August 25, 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of compliance with standards governing the Combined DNA Index System (CODIS) activities at the Illinois State Police Forensic Science Laboratory (Laboratory) in Springfield, Illinois.  CODIS is a national information repository maintained by the Federal Bureau of Investigation (FBI) that permits the storing, maintaining, tracking, and searching of DNA specimen information to facilitate the exchange of information by law enforcement agencies.  The Laboratory received a $450,000 grant in 1996, and a $150,000 grant in 1998, both funded through the Department of Justice.

Our audit generally covered the period from the implementation of CODIS in December 1992 through February 2000.  The objectives of the audit were to determine if the Laboratory:


complied with the FBI's Quality Assurance Standards (QAS) and National DNA Index System (NDIS) requirements; and
	uploaded DNA profiles (a computerized record containing DNA characteristics used for identification) to NDIS that were complete, accurate, and in accordance with the QAS, NDIS requirements, and state legislation.

In general, we found that the Laboratory complied with the QAS and NDIS requirements and uploaded complete and accurate DNA profiles to NDIS in accordance with QAS, NDIS requirements, and state legislation.  However, we noted the following instances of noncompliance:


A profile that matched the DNA profile of a crime victim was erroneously uploaded to NDIS; and
	Three convicted offender profiles reviewed were incomplete because additional test results obtained from reanalyzing the samples were not uploaded to the State DNA Index System. 

The audit results are discussed in detail in the Findings and Recommendations and Other Reportable Matter sections of this report.  Our audit scope and methodology appear in Appendix I, background information in Appendix II, and the audit criteria in Appendix III.  The history and status of DNA testing and CODIS use at the Laboratory are discussed in Appendix IV.